<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                       WEDNESDAY, APRIL 21, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Feinstein, Bond, and 
Shelby.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY, 
            DIRECTOR

             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE

    Chairman Inouye. I'm pleased to welcome Lieutenant General 
Patrick O'Reilly, Director of the Missile Defense Agency (MDA), 
before the subcommittee to discuss the fiscal year 2011 budget 
request for missile defense.
    The request before us today continues the administration's 
efforts to achieve three goals: sustaining homeland defense 
against intercontinental ballistic missiles; increasing focus 
on defense against regional threats; and procuring and fielding 
proven technologies.
    In fiscal year 2011, MDA's budget requests totaled $8.4 
billion, a $500 million increase over fiscal year 2010. And I'm 
pleased to note that the request includes increases of $300 
million for ground-based missile defense (GMD), $245 million 
for aegis ballistic missile defense, and $160 million for 
theater high altitude defense over the levels approved by 
fiscal year 2010.
    These near-term programs are providing missile defense 
assets today, a capability that this subcommittee strongly 
supported for many years. However, even these near-term 
programs have challenges. First, the GMD program had a failed 
intercept test last January that is still under review. 
Industrial-based challenges threaten the continued production 
of the ground-based interceptor missiles. And there is concern 
over whether the program has enough test articles to ensure its 
reliability out to 2032.
    Second, because of the continued success and steadfast 
progress of the aegis BMD system, the administration is now 
demanding more of the program, which presents new risks and new 
challenges. The aegis program is involved in several 
simultaneous efforts, concurrently developing multiple upgrades 
to the standard missile, upgrading ships, conducting intercept 
tests, and starting the aegis ashore program to deploy land-
based versions of the system in Europe.
    Furthermore, fiscal year 2010 is the last year of the 
standard missile block IA production, even though we have not 
yet begun to test the next block upgrade. At a time when the 
combatant commanders are clamoring for more aegis missiles on 
their deployed ships, this seems like a risky proposition. And 
it is of particular concern, considering the test's schedule 
delays of the new missile.
    Finally the terminal high altitude area defense (THAAD) 
program has demonstrated remarkable achievements over the past 
few years. Accordingly, MDA is now being called on to more 
rapidly procure and deploy THAAD batteries to the Army and 
conduct more rigorous and demanding tests of the system.
    And so, I look forward to the hearing today on the progress 
of these three programs that provide the foundation for missile 
defense for the United States and our friends and allies around 
the globe.
    In addition, MDA has many other programs that support the 
current and future missile defense architecture that we will 
discuss today.
    The vice chairman is now involved in another subcommittee, 
so may I call upon Senator Shelby. Do you have anything?
    Senator Shelby. Thank you, Mr. Chairman.
    Mr. Chairman, I appreciate this hearing that you've called. 
And I look forward to hearing from General O'Reilly.
    Chairman Inouye. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, I'm not able to stay for the 
entire hearing, but I wanted to be here and welcome the 
General. And I will put my statement in the record.
    Thank you very much.
    Chairman Inouye. Your statement will be accepted for the 
record and the subcommittee has also received statements from 
Senators Cochran and Bennett which will also be included in the 
record.
    [The statements follow:]

             Prepared Statement of Senator Byron L. Dorgan

    I would like to personally thank you, Lieutenant General 
O'Reilly, for appearing before this subcommittee to discuss our 
nation's missile defense. The defense of our great nation 
against nuclear or some other type of missile attack is a very 
important mission, and you are key to executing that mission. I 
look forward to discussing this important topic with you today.
                                ------                                


               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased in joining you in welcoming 
Lieutenant General O'Reilly to testify before our subcommittee 
today.
    Providing for the Nation's defense is an important and 
basic responsibility, and a functional, capable missile defense 
system is a key component of our national defense strategy as 
adversarial nations continue to pursue the capability to launch 
mid and long range rockets and missiles.
    As Iran continues to pursue a nuclear capability, and as 
nuclear and missile technology continues to proliferate, we 
need to ensure efforts to modernize our missile defense system 
continue to address these growing threats. I am pleased to see 
that this budget recommends increased funding for missile 
defense programs, but I know there are still many challenges in 
making sure we meet the needs of the warfighter and stay one 
step ahead of emerging threats.
    General O'Reilly, I look forward to hearing your testimony 
today to help inform the subcommittee as we consider the fiscal 
year 2011 funding needs for the Department of Defense.
                                ------                                


            Prepared Statement of Senator Robert F. Bennett

    Mr. Chairman, Senator Cochran, I thank you for holding this 
hearing to examine our nation's missile defense programs, and 
appreciate the dedicated interest you direct toward this 
critical work. General O'Reilly, please accept my appreciation 
and that of my constituents for the fine work you are doing at 
the agency.
    We live at a time when there is talk of a ``potential'' or 
``growing'' missile threat from another nation almost every day 
in the news, on the Internet, and on the television. Suffice it 
to say, the MDA's mission to ``deploy . . . an effective 
National Missile Defense system capable of defending the 
territory of the United States against limited ballistic 
missile attack'' is more important now than ever.
    It's no small thing--as some have described the challenge 
of intercepting an enemy missile, to ``hit a bullet with a 
bullet.'' Doing so requires developing a smart system that can 
identify and develop technologies worthy of taxpayer funding, 
and equal to meet the high charge given to the MDA. Given the 
ever-evolving threat environment, my interest lies in seeing 
that the MDA's plans to protect our nation now and in the 
future are adequate for the demands of our national security, 
and are based in proven concepts and technologies, rather than 
theory alone or unrealistic expectations. In addition, I am 
eager to hear how the agency plans to address industrial 
concerns for the production of solid rocket motors. For better 
and worse, the Federal government (i.e. the administration), 
doesn't always act as the monolithic whole that the outside 
world often perceives. Specific agencies pursue their various 
agendas, often without realizing how their individual decisions 
will affect the condition of others. Such unintended 
consequences could be mitigated if not largely avoided if the 
administration, taking into consideration procurement at NASA, 
DOD, and MDA, would provide a comprehensive, strategic 
response.
    While I'm fully aware of the many challenges already on 
your plate, I hope that you will energetically continue to find 
solutions to all of the agencies challenges as you work to 
promote the security of our nation. I look forward to our 
discussion and hearing your testimony.

    Chairman Inouye. General, it's your show, sir.

      SUMMARY STATEMENT OF LIEUTENANT GENERAL PATRICK J. O'REILLY

    General O'Reilly. Good morning, Chairman Inouye and other 
distinguished members of the subcommittee.
    It is an honor to testify before you today on the Missile 
Defense Agency's activities to continue developing and fielding 
an integrated, layered ballistic missile defense system to 
defend the United States, its deployed forces, allies, and 
friends.
    Under the oversight and direction of the Department of 
Defense's Missile Defense Executive Board, the Missile Defense 
Agency proposes an $8.4 billion fiscal year 2011 program that 
is balanced to achieve the six policy goals in the Ballistic 
Missile Defense Review report and the combatant commanders' and 
services' missile defense needs, as stated in the latest U.S. 
Strategic Command's prioritized capabilities list.
    First, defense of the homeland against limited attack: We 
continue to upgrade the ground-based midcourse defense system 
to increase reliability, survivability, ability to leverage a 
new generation of missile defense sensors, and testing to 
accredit our simulations. Missile fields in Alaska are in an 
optimum location to intercept missiles from either northeast 
Asia or the Middle East. The purchase of five additional 
ground-based interceptors and the production of components to 
support extensive reliability testing and missile refurbishment 
will sustain our production capacity until 2016 and critical 
component manufacturing beyond 2020.
    Second, defense against regional threats: By 2015, we plan 
to buy 436 SM-3 IA and IB interceptors, 431 THAAD interceptors, 
14 AN/TPY-2 radars, 9 THAAD batteries, and have 38 ballistic 
missile defense-capable ships available.
    Our regional missile defenses are adaptable to the unique 
circumstances of each combatant command. For example, we 
determined, based on updated intelligence estimates, that our 
previous plan for the defense of Europe could be rapidly 
overwhelmed, and thus made ineffective, by the large number of 
Iranian medium-range ballistic missiles today. Additionally, 
the previous program did not cover most of southeastern Europe 
that is exposed to today's ballistic missile threats, would not 
have been available till 2017, and would have not been 
adaptable to changes in future threats to Europe.
    Therefore, we plan to deploy a larger number of 
interceptors in Europe in four phases as the missile threats 
from the Middle East evolve. The first two phases, in 2011 and 
2015, respectively, provide protection against short- and 
medium-range ballistic missiles. The third phase, in 2018, 
provides protection against intermediate ballistic missiles. 
And the fourth phase, in 2020, provides capability to intercept 
intercontinental ballistic missiles from the region in which 
they are launched.
    Third, prove the ballistic missile defense system works: We 
have submitted a comprehensive integrated master test plan, 
signed by the Director of Operational Test and Evaluation, the 
services' operational test agencies, and the Commander, U.S. 
Strategic Command, to ensure we fly our missiles before we buy 
them.
    The two greatest challenges we face in developing missile 
defense is acquiring cost-effective, reliable targets and 
improving quality control of all products. Over the past year, 
we've initiated a new target acquisition strategy to increase 
competition, improve quality control, reduce costs, and provide 
backup targets, starting in 2012.
    However, the precise performance of missile defense systems 
requires stringent manufacturing standards. Until we complete 
planned competitions, including the greater use of firm fixed-
price contracts and defect clauses, we have to motivate some 
senior industry management through intensive inspections, low 
award fees, insuring--or issuing cure notices, stopping the 
funding of new contract scope, and documenting inadequate 
quality control, to influence future contract awards.
    Fourth, hedging against threat uncertainty: In accordance 
with warfighters' priorities, we are focusing our future 
technologies to develop more accurate and faster tracking 
sensor platforms to enable early intercepts, enhance command 
and control networks to rapidly fuse sensor data to handle 
large raid sizes, develop a more agile SM-3 interceptor to 
destroy long-range missiles, to enhance discrimination of 
reentry vehicles from other objects, and to develop high-energy 
laser technologies.
    Fifth, develop new fiscally sustainable capabilities over 
the long term: The Missile Defense Agency is complying with the 
Weapons System Acquisition Reform Act of 2009 by establishing 
and managing six baselines: cost, schedule, technical, tests, 
contract, and operational baselines, increasing service in 
COCOM participation and increasing emphasis on the competition 
in all phases of a program's acquisition lifecycle. We are 
reviewing over $37 billion of contracts for competition over 
the next 2 years.
    Six, expand international missile defense cooperation: We 
are currently engaged in missile defense projects, studies, and 
analysis with many countries including Japan, Poland, the Czech 
Republic, Israel, Australia, the United Kingdom, Germany, South 
Korea, NATO, the United Arab Emirates, Bahrain, Saudi Arabia, 
and Kuwait. Additionally, Poland and Romania have agreed to 
host our aegis ashore sites, and we cooperatively developed the 
SM-3 IIA interceptor with Japan.
    We also continue to support expert dialogue on cooperative 
efforts with the Russian Federation, whose surveillance radars 
would enhance our ability to monitor ballistic missile 
development and flight testing in southwest Asia.

                          THE NEW START TREATY

    Relative to the recently expired START Treaty, the new 
START Treaty actually reduces constraints on the development of 
missile defense programs. Unless they have new START-
accountable first stages, which we do not plan to use, our 
targets will no longer be subject to START constraints which 
limited our use of air-to-surface and waterborne launches of 
targets which are essential for cost-effective testing of 
missile defense interceptors against medium- and intermediate-
range ballistic targets in the Pacific area. In addition, under 
new START, we will no longer be limited to five space-launch 
facilities for target launches.
    Additionally, the new START Treaty does not constrain 
deployment of ballistic missile defense. Article V, section 3 
of the treaty prohibits the conversion of intercontinental or 
sea-based launch ballistic missiles--launchers--to missile 
defense launchers and vice versa, while grandfathering five 
former intercontinental ballistic missile (ICBM) silos at 
Vandenberg Air Force Base, already converted for ground-based 
interceptors.
    MDA never had a plan to convert additional ICBM silos at 
Vandenberg. Moreover, we determined that if more interceptors 
were to be added at Vandenberg Air Force Base, it would be less 
expensive to build a new ground-based interceptor missile 
field, which is not prohibited by the treaty.
    Regarding submarine-launched ballistic missile launchers, 
some time ago, we examined the concept of launching missile 
defense interceptors from submarines, and found it unattractive 
and an extremely expensive option. As the subcommittee knows, 
we have a very good and significantly growing capability for 
sea-based missile defense on aegis-capable ships.
    In conclusion, MDA is teamed with the combatant commanders, 
services, other DOD agencies, academia, industry, and our 
international partners to address the challenges of managing, 
developing, testing, and fielding capabilities to deter the use 
of ballistic missiles and effectively destroy them, once 
launched.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman. And I look forward to answering 
the subcommittee's questions.
    [The statement follows:]

      Prepared Statement of Lieutenant General Patrick J. O'Reilly

    Good morning, Chairman Inouye, Senator Cochran, other distinguished 
Members of the Committee. It is an honor to testify before you today on 
the Missile Defense Agency's support to the Ballistic Missile Defense 
Review (BMDR) and our $8.4 billion fiscal year 2011 budget request to 
continue our mission to develop and field an integrated, layered, 
Ballistic Missile Defense System (BMDS) to defend the United States, 
its deployed forces, allies, and friends against ballistic missiles of 
all ranges and in all phases of flight. This budget request reflects 
the strategy and policy stated in the BMDR report and the prioritized 
missile defense needs of our Combatant Commanders and the Services as 
stated in the latest U.S. Strategic Command's (USSTRATCOM) Prioritized 
Capabilities List (PCL).
    The Missile Defense Agency has been operating in accordance with 
the principles outlined in last year's Weapons System Acquisition 
Reform Act. This includes establishment of formal baselines for the 
system component managers, Service participation through the 
USSTRATCOM-led Warfighter Involvement Process, and increased emphasis 
on competition at all phases of a program's acquisition life cycle. All 
of these steps, I believe, will maximize the return on the taxpayer's 
investment dollar.
    Under the oversight and direction of the Missile Defense Executive 
Board (MDEB), chaired by the Under Secretary of Defense for 
Acquisition, Technology and Logistics (AT&L), MDA proposes a fiscal 
year 2011 program that is balanced to achieve the six strategy and 
policy goals documented in the BMDR report:
  --Defend the homeland against a limited ballistic missile attack;
  --Defend U.S. forces, allies, and partners against regional threats;
  --Deploy new systems only after effectiveness and reliability have 
        been determined through testing under realistic conditions;
  --Develop new capabilities that are fiscally sustainable over the 
        long term;
  --Develop flexible capabilities that can be adapted as threats 
        change; and
  --Expand international cooperation.
             defense of the homeland against limited attack
    The Ground-based Midcourse Defense (GMD) system forms the 
foundation of our homeland missile defense against limited ICBM attack 
today. We continue to upgrade GMD to increase reliability and 
survivability and expand the ability to leverage new BMDS sensors as 
well as test GMD to accredit our simulations. Since the beginning of 
fiscal year 2009, MDA has delivered five new GBIs, upgraded Fire 
Control and Command Launch Equipment software, completed construction 
of a second GBI missile field at Fort Greely, Alaska, and delivered a 
new silo and an additional In-Flight Interceptor Communication System 
Data Terminal at Vandenberg Air Force Base, California. Additionally, 
we are completing the missile defense upgrades to the Upgraded Early 
Warning Radar (UEWR) in Thule, Greenland, and we have transferred 
operation of the Cobra Dane Early Warning Radar and the Beale and 
Fylingdales UEWRs to the Air Force. We are continuing planning and 
design work to upgrade the Clear, Alaska Early Warning Radar.
    We are requesting $1.3 billion in fiscal year 2011 for GMD to 
continue our GBI refurbishment and reliability sustainment programs to: 
help sustain the fleet to 2032 and support a service life extension 
decision around 2027; procure an additional 5 GBIs; complete Missile 
Field 2 in a 14-silo configuration to accommodate a contingency 
deployment of eight additional GBIs; upgrade GMD Fire Control ground 
system software to ensure GMD leverages BMDS increased discrimination 
and tracking capability as sensor, data fusion and battle management 
network matures; and complete the installation of a second GMD command 
and control node at Fort Greely, Alaska. Additionally, we will continue 
operations and sustainment of the Sea-Based X-band radar (SBX) platform 
to prepare for transfer of the SBX operations to the U.S. Navy in 2012. 
Finally, we will continue development of technologies to enhance 
Standard Missile 3 (SM-3) variants to protect our homeland in the 
future by having the capability to intercept long-range ballistic 
missiles early in flight in the regions from which they were launched. 
To validate this concept, the Under Secretary of Defense (AT&L) 
requested the Defense Science Board independently assess the viability 
of developing capability for early intercept of ICBMs. Our GMD 
sustainment, refurbishment and test strategy gives us the flexibility 
to adjust to the uncertainty in the future ICBM threat. Although, we 
experienced a GBI vendor production break after the last procurement of 
GBIs in 2006, the purchase of 5 additional GBIs, and supplying 
``limited life'' GBI components for refurbishments will sustain our 
production capacity until 2016 and beyond. We will conduct stockpile 
surveillance of GBIs by testing all limited life components as GBIs are 
refurbished through 2032. Data collected from future GMD flight tests, 
results from the aging surveillance program, and future intelligence 
estimates regarding the pace of ICBM growth will inform decisions on 
the need to procure additional GBIs.

                    DEFENSE AGAINST REGIONAL THREATS

    Our fiscal year 2011 budget request balances the war fighter's 
needs to develop new capabilities and grow our missile defense 
capacity. An integrated deployment of Aegis BMD and Terminal High 
Altitude Area Defense (THAAD) forms an effective, layered, regional 
missile defense. The Aegis BMD is a mobile system, designed to defeat 
short- to intermediate-range missiles above the earth's atmosphere, and 
the THAAD is a rapidly deployable system, designed to engage short- to 
medium-range missiles both above and within the Earth's atmosphere. 
Aegis has more than twice the engagement range of THAAD. Additionally, 
Patriot Advanced Capability 3 can add an additional layer and point 
defense against Short Range Ballistic Missiles (SRBMs).
    We are developing regional missile defense elements that can be 
adapted to the unique circumstances of each Combatant Command region. 
For example, we plan to deploy missile defenses in Europe in four 
phases as missile threats from the Middle East evolve over time. The 
Phase 1 capability (planned to begin deployment in 2011) will provide 
initial protection for southern Europe from existing short- and medium-
range threats using sea-based interceptors and forward-based sensors. 
Phase 2 (2015) deploys the SM-3 IB interceptor at sea and at an Aegis 
Ashore/land-based SM-3 site. In collaboration with OSD Policy, 
USSTRATCOM, the Department of State, and United States European Command 
(USEUCOM), we are preparing to begin negotiations with Romania to 
locate an Aegis Ashore/land-based SM-3 site on its territory in 2015. 
Phase 3 (2018) employs SM-3 IIA on land and at sea to protect NATO 
from SRBM, MRBM, and IRBM threats. Poland has agreed to host this Aegis 
Ashore/land-based SM-3 site. The Phase 4 architecture (2020 timeframe) 
features the higher velocity land-based SM-3 IIB, a persistent sensor 
network, and enhanced command and control system to intercept large 
raids of medium- to long-range missiles from the Middle East early in 
flight.
    Since the beginning of fiscal year 2009, MDA has delivered 27 SM-3 
Block IA interceptors and upgraded 3 additional ships (for a total 
today of 20 Aegis BMD ships); upgraded the U.S.S. Lake Erie with the 
next generation BMD fire control software that increases the number of 
threat missiles that can be simultaneously engaged and more effectively 
uses data from missile defense sensors external to the ship. We have 
also delivered two THAAD batteries (the first unit is planned to be 
operationally accepted by the Army by the end of this year). We have 
separately deployed one U.S.-operated X-band AN/TPY-2 radar to Israel 
on a contingency basis. We have also installed C\2\BMC hardware and 
software upgrades at command and control nodes at U.S. Pacific Command, 
USSTRATCOM, U.S. Northern Command and USEUCOM and began C\2\BMC 
installation in the U.S. Central Command.
    We are requesting $1.6 billion for Aegis in fiscal year 2011. We 
will continue the design, qualification, and testing of the SM-3 IB 
interceptor; manufacture 30 SM-3 IB test and production verification 
interceptors (we plan to procure a total of 436 Aegis SM-3 IA and IB 
interceptors by 2015), and upgrade 3 additional Aegis BMD engagement 
ships (two Aegis BMD 3.6.1 destroyers and one 4.0.1 destroyer) for a 
total of 23 BMD capable ships by the end of fiscal year 2011 and 38 BMD 
capable ships by 2015. We will continue development and testing of the 
Aegis BMD 4.0.1 and 5.0 fire control system to launch SM-3 IB and IA 
interceptors against threat missiles when they are beyond the range of 
the ship's own radar. We also will continue the co-development of the 
SM-3 IIA interceptor with the Government of Japan to increase 
significantly the area defended by the Aegis BMD system with its 21-
inch diameter rocket motors, two-color seeker, and increased kinetic 
warhead divert capability. We also will continue to design the first 
Aegis Ashore battery that will be installed for testing at the Pacific 
Missile Range Facility in 2012.
    We are requesting $1.3 billion for THAAD in fiscal year 2011. We 
plan to deliver the second THAAD battery (we plan to procure 6 
batteries by 2015), add a second launcher platoon to each battery to 
double the firepower to 48 interceptors, procure 67 interceptors (we 
plan to procure a total of 431 interceptors by 2015), and complete 
hardware and software upgrades to the communications suite to enable 
THAAD to use fused data from all BMDS sensors.
    We are requesting $455 million for sensors in fiscal year 2011. We 
plan to upgrade the AN/TPY-2 radar software to facilitate its use as a 
surveillance radar or as a THAAD battery fire-control radar, optimize 
the radar's ability to leverage assistance by external sensors, and 
support the contingency operations of AN/TPY-2 radars deployed in Japan 
and Israel. We will continue to develop a Concurrent Test, Training and 
Operations capability to provide operational BMDS sensors (including 
the UEWRs, Cobra Dane and Sea-Based X-band radars) the capability to 
conduct training and testing while continuing to provide on-line 
missile defense, upgrade AN/TPY-2 and Sea-Based X-band radar 
discrimination and dense track management software, and conduct ground 
and flight testing to support accreditation of sensor models and 
simulations.
    We are requesting $343 million for Command and Control, Battle 
Management and Communications (C\2\BMC) in fiscal year 2011. We plan to 
provide automated planners to aid a Combatant Command's deployment of 
BMD assets according to its concept of operations and conduct ballistic 
missile defense battles according to its tactics, techniques, and 
procedures. Furthermore, we will develop and deploy an upgraded version 
of our C\2\BMC hardware and software to provide new battle management 
functions that enable shoot-look-shoot tactics between layers of U.S. 
and international partners' missile defense assets, control multiple 
BMDS radars, correlate and combine sensor data from multiple sensors 
tracking the same threat into one system track, provide real-time 
awareness of the battle as it develops in accordance with a Combatant 
Command's concept of operations, and enable engagement coordination 
among BMDS elements in accordance with regional Area Air Defense Plans. 
Additionally, C\2\BMC will participate in and analyze results of ground 
and flight tests to support accreditation of models and simulations and 
support war games and exercises.
    MDA played a significant role in the conduct of the Ballistic 
Missile Defense Review. The agency provided technical analysis and data 
as required by the leaders of the review to support their effort to 
answer the questions posed by Congress. Preliminary analytical results 
were then presented to the departmental leaders, including the 
Secretary and Chairman, who then made recommendations to the President. 
Although MDA provided these architecture assessments, it is important 
to recognize the decision to deploy the recommended European PAA 
architecture was not based solely on detailed performance predictions. 
Rather, the decision to deploy an Aegis SM-3-based architecture to 
Europe was based on the need for a flexible defense against an evolving 
threat from the Middle East. First, the previously proposed European 
missile defense architecture lacked a sufficient number of interceptors 
to defend against the current and emerging numbers of medium-range 
ballistic missiles (MRBMs) being fielded by Iran. Simply put, with a 
notional two interceptor shot doctrine, the 10 GBI interceptors 
proposed for Poland would easily be overwhelmed by a raid size of 6 
threat missiles launched towards European targets. Second, with the 
European PAA, we can deploy a missile defense capability to Europe 
earlier than the previous Program of Record, with GBIs in Poland and an 
X-Band Radar in the Czech Republic. NATO Europe is threatened by a 
short-range and medium-range ballistic missile threat now, so this was 
an important variable in the decision. Upon the completion of testing 
in 2011, we could begin the deployment of proven capabilities to defend 
against the MRBM threat. Third, by creating a re-locatable, land-based 
version of our most capable regional missile defense system, the Aegis 
Ballistic Missile Defense (BMD) system, Combatant Commanders could have 
the capability to adjust their missile defense architectures to address 
the uncertainty of future missile threats without the need to develop a 
new missile defense system. These systems can be deployed in any 
theater in a reasonably short period of time. Fourth, the increased 
defended areas and larger raid size capacity resulting from planned 
enhancements to the Aegis BMD system are expected to increase the cost-
effectiveness of a European missile defense against the growing missile 
threat over this decade. Finally, while we currently have a limited 
defense system against potential Intercontinental Ballistic Missile 
(ICBM) threats originating in the Middle East or Northeast Asia, there 
is no technical reason to indicate that this system would not be 
further enhanced by the deployments envisioned in Phase 4 of the PAA. 
It is important to note that the missile defense capability needs 
identified in the BMDR are consistent with capability needs listed in 
the recently approved, independently developed, classified USSTRATCOM 
missile defense Prioritized Capability List.

           PROVING THE BALLISTIC MISSILE DEFENSE SYSTEM WORKS

    A key tenet of the BMDR is to sufficiently test the capabilities 
and limitations of a missile defense system before we begin 
procurement, or we will ``fly before we buy.'' As such, missile defense 
projects are subject to production decisions by USD (AT&L). 
Additionally, we use the Services' standard material release and 
operational certification processes that also rely on developmental and 
operational test data prior to formally fielding initial capability. 
Both THAAD and AN/TPY-2 have production decisions by USD (AT&L) and 
Army Material Review Boards planned for this year. We are requesting 
$1.1 billion in fiscal year 2011 to provide targets and support to 
missile defense projects to test new capabilities under developmental 
and operational conditions, including the use of actual threat 
missiles, to support accrediting our models and simulations and 
production decisions by USD (AT&L). In collaboration with the Services' 
Operational Test Agencies, USSTRATCOM, and the Director, Operational 
Test & Evaluation, we submitted a comprehensive Integrated Master Test 
Plan (IMTP) in March that describes our plan through fiscal year 2015 
to conduct over 150 test events to obtain specific data necessary to 
accredit our models and simulations and support operational 
assessments. The IMTP also describes our testing to support European 
PAA deployment decisions. To support a Phase 1 decision in 2011, we 
have completed 10 Aegis BMD intercept tests of short range targets. We 
will conduct an Aegis BMD test against an intermediate-range ballistic 
missile target prior to the Phase 1 deployment. Likewise, there are 
system level ground tests, exercises, and simulations to test system 
effectiveness and interoperability. The IMTP also describes our testing 
of the two-stage GBI and several GMD intercept tests against long-range 
targets. I concur with the January 2010 DOT&E January assessment that 
``if MDA can execute the IMTP as planned, successful VV&A of BMDS 
models and simulations should result, enabling quantitative and 
objective rather than subjective assessments of the BMDS capability in 
the future.'' I further agree with the DOT&E conclusion that 
``objective assessments of the BMDS capability are still a number of 
years in the future.''
    Our recent flight test results have been mixed. From October 2008 
through today MDA achieved 5 of 7 successful hit-to-kill intercepts and 
a number of ``firsts'' in BMDS testing. In December 2008, the GMD 
system engaged an IRBM target launched from Kodiak Island, Alaska, 
using a GBI launched from VAFB in the most operationally realistic test 
to date that demonstrated our ability to fuse sensor data from five on-
line sensors. Unfortunately, the target in that flight test failed to 
release countermeasures. In March 2009, with soldiers operating the 
system using tactics, techniques, and procedures developed by the U.S. 
Army, we conducted THAAD's first dual salvo endo-atmospheric engagement 
of a threat-representative separating ballistic target. The Navy 
conducted an intercept using an Aegis SM-2 Block IV (terminal defense) 
in February 2009, and we conducted an SM-3 IA intercept in July 2009. 
In October 2009, we supported Japan's intercept test of an SRBM using 
the Japanese destroyer JS MYOKO.
    Although we have had three intercepts out of three previous 
attempts using the GMD system, our newest variant of the kill vehicle, 
relying on data from the Sea-Based X-band (SBX) radar, failed to 
intercept a target in January 2010 during a flight test to measure 
GMD's performance at its maximum operational intercept range. The GBI 
launched successfully from VAFB and the newly designed LV-2 long-range 
target successfully flew for the first time out of the Reagan Test Site 
in the Kwajalein Atoll 7,500 km away. It was a very valuable test 
because we collected extensive data on the performance of the SBX and 
GBI, the advanced exo-atmospheric kill vehicle (EKV), and the target. 
We discovered new failure modes for the SBX, the EKV flew more than 
twice the distance it had flown in previous tests, and we collected 
significant new data on the EKV's ability to acquire, track, and 
discriminate the target. The failure investigation is expected to 
continue for several more months before root-cause is determined and 
verified. It is my intent to immediately correct any deficiency and 
repeat the test as soon as feasible. In contrast, the most recent 
attempt to conduct a THAAD test last December was of no value because 
of a target missile failure. The THAAD interceptor was not launched and 
the system was not exercised. Despite the cost of more than $40 million 
for that test and subsequent program delays, we gained no new 
information on the performance of the THAAD system.
    The two largest challenges to executing the U.S. missile defense 
program is acquiring a cost effective set of reliable targets and 
improving quality control. Over the past year we have initiated steps 
to acquire a new set of targets of all ranges, including Foreign 
Material Acquisitions, to verify the performance of the BMDS. Our new 
target acquisition strategy, initiated in fiscal year 2009, procures 
targets in production lots to increase competition, quality control, 
reduce costs, and ensures the availability of backup targets starting 
in 2012. For the next 3 years, we must continue to rely on an intensive 
inspection and oversight process to motivate mission assurance.
    Due to the precise nature of the operation of missile defense 
systems, very high standards of quality control and an enduring culture 
of disciplined mission assurance by the industry workforce is 
essential. We have had many successes in improving our prime contractor 
and supplier quality assurance. In each case, companies have been 
willing to identify shortfalls, invest in new capital assets and attain 
experienced leadership in changing cultures to establish the enduring 
discipline required to consistently deliver precision missile defense 
products. However, not all companies have sufficiently improved. Until 
we complete planned competitions, including the greater use of firm 
fixed price contracts, we will have to motivate greater attention by 
senior industry management through intensive government inspections, 
low award fees, the issuance of cure notices, stopping the funding of 
new contract scope, and documenting inadequate quality control 
performance to influence future contract awards by DOD.

                   HEDGING AGAINST THREAT UNCERTAINTY

    Missile defense technologies must be developed to adapt and upgrade 
our systems to counter future changing threats. In accordance with the 
PCL, we are focusing our future technologies in four areas: (1) 
developing more accurate and faster tracking sensors on platforms to 
enable early fire control solutions and intercepts; (2) developing 
enhanced command and control networks to link and rapidly fuse sensor 
data to handle large raid sizes of missile threats; (3) developing a 
faster, more agile version of our SM-3 interceptor to destroy long-
range missiles early in flight; and (4) developing discrimination 
techniques to rapidly resolve Reentry Vehicles from other nearby 
objects. Additionally, we continue to research technologies for 
destroying boosting missiles with directed energy. We are developing 
more mature technologies for mid-term deployment decisions around 2015 
and conducting science and technology experiments for far-term (around 
2020) advanced capability deployment decisions.
    One of the highest priority capabilities requested by the war 
fighter community is a persistent and precise missile tracking 
capability. We are requesting $113 million in fiscal year 2011 for the 
Space Tracking and Surveillance System (STSS) and Near Field Infra-Red 
Experiment satellite operations. This space operations work will 
demonstrate the utility of remote missile tracking from space and 
reduce the risk of integrating the remote tracking data of future 
satellites into missile defense fire control systems. MDA launched two 
STSS demonstration satellites on September 25, 2009. We continue 
testing and operating the two demonstration satellites, including 
cooperative tests with other BMDS elements, and demonstrating these 
satellites against targets of opportunity and scheduled tests involving 
targets. We are also requesting $67 million in fiscal year 2011 for a 
new program start, the Precision Tracking Space System (PTSS), 
comprised of a network of remote tracking satellites, communications, 
and ground stations. Key attributes of the PTSS are its limited 
mission, uncomplicated design, lower costs, use of mature technologies, 
and integration with legacy data management and control systems to 
provide a persistent remote missile tracking capability of the areas of 
the earth that are of most concern for missile defense. Lessons learned 
from the two STSS demonstration satellites currently on orbit will 
inform decisions on the development of a prototype PTSS capability by 
the end of 2014. After validating the prototype design in ground 
testing in 2014, we plan to fly the first prototypes while we have 
industry teams compete to produce the remaining satellite constellation 
for initial constellation operations by 2018.
    We are also requesting $112 million for fiscal year 2011 for the 
development and testing of a remotely piloted vehicle (RPV) based 
missile tracking sensor system, or Airborne Infrared (ABIR) sensor 
system, to track large raids of ballistic missiles early in flight. We 
are completing an analysis of the optimum RPV platform and sensors to 
integrate into an effective early missile tracking system.
    For fiscal year 2011, we are requesting $52 million for C\2\BMC 
enhancements to develop a net-centric, Service-oriented architecture, 
to rapidly fuse sensor data and provide data to distributed fire 
control systems to intercept enemy reentry vehicles early, optimize 
shoot-look-shoot opportunities, and economize the number of 
interceptors required to defeat a raid of threat missiles. We are 
pursuing enhanced C\2\BMC capabilities and experiments to integrate 
interceptor fire control systems with ABIR, STSS, and other new sensor 
technologies. We work closely with USSTRATCOM and the COCOMs to develop 
and deliver the optimum C\2\BMC architectures in their regions.
    We are requesting $41 million in fiscal year 2011 to develop 
components that increase the speed of our SM-3 family of interceptors 
with advanced divert capability, faster boosters, and lighter kill 
vehicles. We are studying the use of a derivative SM-3 IB kill vehicle 
and derivatives of the first and second stages of the SM-3 IIA 
interceptor as part of the development of the SM-3 IIB long-range 
missile interceptor.
    We are requesting $99 million for fiscal year 2011 to conduct 
continued research on high energy lasers. This past year we saw the 
significant accomplishments of the Airborne Laser Test Bed (ALTB) as it 
completed preparatory tests which ultimately led to two successful and 
historic experimental shoot-downs of a solid rocket on February 3, 
2010, and a boosting, liquid-fueled, Foreign Material Acquisition (FMA) 
target on February 11, 2010. We are preparing for another test against 
an FMA, at nearly twice the distance, later this spring. We will 
continue to investigate multiple high energy laser technologies to 
characterize their performance while validating the modeling and 
simulation of long range directed energy beam propagation and beam 
control. Additionally, we are currently supporting the USD (AT&L)/
Director for Development, Research and Engineering (DDR&E) 
comprehensive review of all DOD high energy laser programs to establish 
a department wide program for developing and applying high energy laser 
capabilities. We anticipate this review will define the ALTB's role in 
the future development of high energy lasers.

   DEVELOP NEW, FISCALLY SUSTAINABLE CAPABILITIES OVER THE LONG TERM

    MDA's preferred approach to developing new missile defense 
capabilities is to evolve and upgrade existing capabilities to leverage 
the cost-effectiveness of utilizing existing Service training, 
personnel and logistics infrastructures. The fiscal sustainability of 
missile defense systems is largely determined by the cost of operations 
and sustainment. Therefore, MDA executes ``hybrid management'' of 
projects with the designated lead Services by embedding ``Service 
cells'' in MDA joint project offices to make design and development 
decisions associated with Doctrine, Organization, Training, Leadership, 
Personnel and Facilities (DOTLPF) to assure MDA products efficiently 
align with Service processes and operational concepts.
    MDA has established six baselines (cost, schedule, technical, test, 
contract, and operational baselines) to plan and manage the execution 
of missile defense projects. I approve the baselines of technology 
programs, but jointly approve with lead Service Acquisition Executives 
the baselines of MDA projects in product development. These baselines 
not only assist in our cost-effective management of MDA projects, but 
also provide visibility to the MDEB and Congress on the progress of our 
execution. The baselines of all of our projects are established in 
spring and will be submitted to Congress in a Baseline Acquisition 
Report (BAR) in June. Finally, these baselines will form the basis for 
USD (AT&L) production decisions.

            EXPAND INTERNATIONAL MISSILE DEFENSE COOPERATION

    As stated in the BMDR and Quadrennial Defense Review (QDR), a key 
strategic goal is to develop the missile defense capacity of our 
international partners. We are currently engaged in missile defense 
projects, studies and analysis with over twenty countries. Our largest 
international partnership is with Japan. We are co-developing the SM-3 
IIA missile, studying future architectures, and supporting their SM-3 
IA flight test program. In Europe, we are participating in the NATO 
Active Layer Theater Ballistic Missile Defense (ALTBMD) command and 
control program and war games, continuing technology research projects 
with the Czech Republic, and planning for the European PAA deployments, 
which include the installation of Aegis Ashore sites, one each in 
Romania and Poland. Collaboration with Israel has grown to involve the 
development and deployment of the Arrow Weapon System, which is 
interoperable with the U.S. missile defense system. MDA has completed 
and the United States is now in the final negotiation of an Upper Tier 
Project Agreement with Israel for cooperative development of an exo-
atmospheric interceptor and amending the United States-Israel Arrow 
Weapon System Improvement Program agreement to extend the system's 
battle space and enhance its ability to defeat long-range ballistic 
missiles and countermeasures. MDA and Israel are also jointly 
developing the David's Sling Weapon System to defend against shorter 
range threats, to include some ranges that the PAC-3 system cannot 
engage. Additionally, MDA is active in supporting the Combatant 
Commands through international symposiums, bi-lateral and multi-lateral 
dialogs, planning, and analysis with Allies and international partners 
to help them understand the benefits of integrated missile defense in 
their regions.

                               CONCLUSION

    Missile defense is a key part of our national security strategy 
described in the BMDR to counter the growing threat of ballistic 
missile proliferation. The New START Treaty has no constraints on 
current and future components of the BMDS development or deployment. 
Article V, Section 3 of the treaty prohibits the conversion of ICBM or 
SLBM launchers to missile defense launchers, and vice versa, while 
``grandfathering'' the five former ICBM silos at Vandenberg AFB already 
converted for Ground Based Interceptors. MDA never had a plan to 
convert additional ICBM silos at Vandenberg and intends to hedge 
against increased BMDS requirements by completing construction of 
Missile Field 2 at Fort Greely. Moreover, we determined that if more 
interceptors were to be added at Vandenberg AFB, it would be less 
expensive to build a new GBI missile field (which is not prohibited by 
the treaty). Regarding SLBM launchers, some time ago we examined the 
concept of launching missile defense interceptors from submarines and 
found it an unattractive and extremely expensive option. As the 
committee knows, we have a very good and significantly growing 
capability for sea-based missile defense on Aegis-capable ships.
    Relative to the recently expired START Treaty, the New START Treaty 
actually reduces constraints on the development of the missile defense 
program. Unless they have New START accountable first stages (which we 
do not plan to use), our targets will no longer be subject to START 
constraints, which limited our use of air-to-surface and waterborne 
launches of targets which are essential for the cost-effective testing 
of missile defense interceptors against MRBM and IRBM targets in the 
Pacific area. In addition, under New START, we will no longer be 
limited to five space launch facilities for target launches.
    MDA is working with the Combatant Commanders, Services, other DOD 
agencies, academia, industry and international partners to address the 
challenges and difficulties of managing, developing, testing and 
fielding new military capabilities to deter use of ballistic missiles 
and effectively destroy them once launched. Implementing these war 
fighter priorities takes time, since the production time for a missile 
and radar is over 2 years and establishing and training a unit to 
create and deploy a military capability takes an additional year. Our 
fiscal year 2011 budget funds the war fighters' near-term priorities 
while building the foundation of a layered defense system with our 
partners and friends that can provide an adaptive, cost-effective 
strategy to counter ballistic missile proliferation in the future.
    Thank you, Mr. Chairman. I look forward to answering your 
questions.

    Chairman Inouye. General, last year, the President 
announced a shift in plans involving Europe and missile 
defense, and the cornerstone of this new approach is the so-
called aegis ashore program. Can you give us an update on where 
we are at this moment?

                    PHASED ADAPTIVE APPROACH--AEGIS

    General O'Reilly. Yes, sir. We have, last year, completed 
an analysis of alternatives of different ways of providing the 
type of capability that the SM-3 missile offers. It has a range 
of well over 800 kilometers, and it has a defended area that is 
quite substantial--about twice what THAAD's is. And THAAD is 
about 10 times the area of--what a Patriot unit can protect. 
So, we're looking for that type of capability, and we 
identified that by simply taking the aegis system, the combat-
proven aegis system, and moving it to the land and keeping as 
much of it as identical as possible, reducing developmental 
costs. At that point, it would give the combatant commanders 
and the Navy the opportunity to have the same system at sea as 
they have at land. They have a worldwide logistics data--or 
logistics base, training base, and the personnel to man these 
systems very quickly.
    So, we're very mature in the development of the aegis 
ashore. It has been tested and operated in a test-type 
configuration at White Sands, for shorter range, for over 10 
years. So, we're in a very good position, sir, to begin the 
integration of it and delivering the first test unit.
    Chairman Inouye. So, you're on schedule now.
    General O'Reilly. Yes, sir.

                         PARTNERSHIP WITH JAPAN

    Chairman Inouye. Now, one of our largest partners in 
defense is Japan, and you have been developing the standard 
missile block IIA upgrade with them. Can you update us on the 
status of this upgrade program and the partnership with the 
Japanese, overall?
    General O'Reilly. Sir, this program is in its fifth year of 
development. We have matured the components, both what the 
Japanese will develop and are developing and what the U.S. 
industry is developing. We have identified all of the steps 
that are necessary to have a successful integration. Our first 
flight test will be in 2014 and our first intercept will be in 
2015. We are in full agreement with the Japanese Government and 
have full support in this development. Within the next year, we 
will begin our discussions on the production arrangement 
between the United States and Japan.
    Chairman Inouye. So, the change in government there has not 
affected the progress of your partnership.
    General O'Reilly. No, sir. I have held several high-level 
reviews of this program with the Japanese Government since 
then, and they have indicated they are in full support and 
their commitments are solid.
    Chairman Inouye. I have several other questions to ask, but 
they're more technical in nature, so I will submit them to you, 
General.
    May I now call upon Senator Shelby.

                        GBI NUMBERS AND TESTING

    Senator Shelby. Thank you, Mr. Chairman.
    General O'Reilly, I have several questions for the record.
    You said that you need 52 GBI interceptors--30 in Alaska 
and 22 to be used for testing and spares. The GMD program 
manager stated that 19 of the 22 GBIs will be used in testing, 
through 2019. That will leave us with just three GBIs to 
conduct reliability flight testing through 2032--long span 
there. That would be one test every 4 years, so to speak. What 
kind of analysis have you done to the number of ground-based 
interceptors that you really need? This seems to be kind of 
stretching it.
    General O'Reilly. Sir, the--first of all, when the program 
manager made that comment, he is also referring to some 
missiles we have already procured for flight testing. But----
    Senator Shelby. Explain what you mean.
    General O'Reilly. We will procure 52 between now and the 
end of the GBI----
    Senator Shelby. Okay.
    General O'Reilly [continuing]. By the current plan--30 for 
operational capability, 4 for operational spares that--we don't 
have an exact number on those operational spares, we just use 
that as a hedge--and then 18 more will be used in testing. By 
2019, we will have tested 20 missiles, including the ones we've 
previously tested. We will have, at that point, two missiles 
plus the four operational spares. So, there's a total of six 
missiles to make a determination, over the last 10 years of the 
estimated life, if we don't extend the life.
    These--I will make the comment that these missiles were 
designed with an--a very large effort on its reliability and 
maintainability. And, just for example, those 30 missiles in 
the silos will be tested 4.3 million times over its 10-year or 
20-year period. So, we believe we have a very rigorous program 
to test the reliability, and we're going to remove the missiles 
from the silos about halfway through their life and replace 
their limited-life components, and test those. So, sir, we 
believe we're in a position to have very good insight into how 
these missiles are aging.
    Senator Shelby. You feel real comfortable with this and 
your plan?
    General O'Reilly. Yes, sir. And--but, we do have the 
procurement of five new GBIs----
    Senator Shelby. Okay.
    General O'Reilly [continuing]. Which will reopen the 
production lines, which--most of them have completed their 
previous production. So, we'll have five lines open through 
2016--will be qualified, in case we do find that there's a--
circumstances where we need to go back to the industrial base.

                       AEGIS AND GMD COMPETITION

    Senator Shelby. General O'Reilly, we all like competition, 
because out of competition, generally, comes good products. And 
I think that's best for the taxpayer and the warfighter. Why 
would you recompete the GMD program, but attempt to sole-
source, some people believe, the aegis ashore program?
    General O'Reilly. Sir, the decision----
    Senator Shelby. Is there a reason?
    General O'Reilly. Yes, sir. The decision process I have to 
go through is, Is there a competitive or alternate sources to 
produce a product whenever we're--need to acquire a new 
product? In the case of GMD, we put out a market survey, and 
the market survey indicated that there were several companies 
that were willing, and we deemed viable, to actually compete 
for GMD. In the case of aegis ashore, the concern was the 
timelines we are on to deliver the first test unit and the 
second one--the second unit, which will be the first one in 
Romania--or the one in Romania. That timeline required us to 
have--whoever the manufacturer is--to have extensive experience 
with the aegis weapon system, because we want it to be 
identical onshore as it is at sea. However, our intent is, 
after that point, to compete remaining aegis ashore sites.
    Senator Shelby. Okay.

                               SM-3 COST

    I want to get into the SM-3 with you. The 2011 budget 
provides for the procurement of--as I understand it--of eight 
SM-3 block IBs. Now, it's my further understanding that MDA is 
still working on research and development for 30 SM-3 block IBs 
for testing. But, according to the Future Years Defense Program 
(FYDP), it appears that, in 2012, MDA expects to order 66 SM-3 
block IB missiles. That appears to be a pretty aggressive 
production increase from 2011 to 2012. Have you considered 
adding further funding for missile production in 2011 to even 
out the workload and decrease the cost per missile? Because, we 
are interested in quality, but we're interested in cost, too, 
aren't we?
    General O'Reilly. Yes, sir. We have considered that. The 
decision for the current delivery of the SM-3 IA missiles was 
made in 2008, because it takes 2 years to procure--to build a 
missile. So, if we had additional funding now added to the 
budget, it would not deliver additional IAs until 2013. So, I--
we do have a recognized limitation in the number of missiles we 
have available to us. But, my ability to deliver missiles in 2 
years--by that time, as you said, sir, our plans are that we'll 
have the IB in full rate.
    On the question of rating, though--how quick we can ramp 
up--the first, second, and third stage of the SM-3 IB is 
identical to the IA.
    Senator Shelby. Okay.
    General O'Reilly. So, we are--what we're talking about is 
the front end, the kill vehicle itself. And so, we've--we do 
believe that that is achievable, given it's that one component 
of the missile which will be different.

                    START TREATY AND IRANIAN THREAT

    Senator Shelby. My last--I know my time's running out--but, 
General, a lot of us are concerned with aspects of the new 
START Treaty and its potential to limit the U.S.'s options to 
deploy missile interceptors. In addition, when the Obama 
administration decided to terminate third-site plans in Europe, 
Secretary Gates said the decision was based on intelligence 
findings that, and I'll quote, ``The threat of potential 
Iranian intercontinental ballistic missile capabilities have 
been slow to develop.''
    A new report issued just this month now states, and I'll 
quote, ``With sufficient foreign assistance, Iran could 
probably develop and test an intercontinental ballistic missile 
capable of reaching the United States by 2015.''
    With this report of Iran having an ICBM capability by 2015, 
third-site plans canceled, and a treaty that may potentially 
limit our response to attacks, How do you effectively plan to 
counter threats like this? And I'm glad that we have Senator 
Feinstein and Senator Bond on this subcommittee, because 
they're deep into the intelligence field on this.
    General O'Reilly. Yes, sir. Sir, what we recognized last 
year, going through the Ballistic Missile Defense Review, was 
the inherent uncertainty in intelligence estimates. If you go 
back over history, there is not a pattern that we can follow. 
So, our recognition was, we need, as the Secretary of Defense 
has determined, a hedge, in case we underestimate or 
overestimate the threat in, especially, the case of 
intercontinental ballistic missiles coming from countries that 
currently don't possess them. So, that is why the--we have 
proposed in this budget to continue completing missile field 
number 2 at Alaska, so we have eight additional silos than what 
I testified to last year. And we have also tested the two-stage 
GBI, or are going to test it in June. So, we're right on the 
verge of testing that missile. We have a--it's a--it's very 
close in design and--to the three-stage. So, we believe we will 
have the ability to have a second--or an additional shot 
opportunity with that missile, and additional silos, if needed, 
to replace a shot opportunity we were originally looking for in 
Europe.
    Senator Shelby. Don't you have to basically take the 
Iranian threat as real, as dangerous to this country?
    General O'Reilly. Yes, sir. We do. They're----
    Senator Shelby. Thank you, Mr. Chairman.
    General O'Reilly [continuing]. Them and other countries.
    Senator Shelby. Thank you.
    Chairman Inouye. Thank you very much.
    Senator Dorgan.

                  START TREATY AND LIMITS TO RESPONSE

    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me just say, though, that I think--my reading of the 
START Treaty is one that does not impose any limitations on our 
response to attacks. I know some are raising those questions. I 
don't believe the START Treaty does that at all. And, General, 
you're welcome to respond to that, if you wish.
    General O'Reilly. Sir, I've personally not found a single 
case where it does limit, other than prohibitions against plans 
we never considered doing, like converting silos.
    Senator Dorgan. I just--I mean, that there--I know there'll 
be some disagreement on the START Treaty, and I've already seen 
some. And my colleague just referenced some of the discussion. 
But I don't believe there's any limitation in our response to 
attacks.

                         AIRBORNE LASER PROGRAM

    I want to make the point that we spend about $132 billion, 
as I understand it, on missile defense work since--I think in 
the last 25 years or so; $132 billion is a lot of money. I was 
particularly interested in the Airborne Laser Program, which I 
understand has now been descoped to a research and development 
program. Can you tell me, how much have we spent on airborne 
laser? Do we ever expect airborne laser will become a part of 
our future plans?
    General O'Reilly. Sir, we have spent over $5 billion on 
airborne laser since 2002, when it became part of the Missile 
Defense Agency. It previously was an Air Force program. We have 
successfully tested the intercept of a ballistic missile, 
earlier this year, for the first time. We accomplished many 
scientific historical breakthroughs in that work. We are 
planning to conduct another test next month, at twice the range 
of the last test. We destroyed the missile quicker than we 
calculated we would. So, everything indicates that our basic 
models, which were in debate, are fairly sound, and we will 
continue to validate our models and our simulations.
    There were operational concerns about the range of this 
particular laser and--compared to the range of surface-to-air 
missiles that we know exist around the world today. However, 
the airborne laser has proven to be a very valuable platform 
for testing this technology, because of the beam control in the 
front end of the missile and the aircraft, the way it's been 
designed to carry more than one laser. So, because of that, the 
coil laser, which is currently on board, that we tested, was a 
19--it was in the 1990s it was designed. Since then, our 
national labs have produced many compelling new technologies 
that they are demonstrating, that the Department is reviewing 
now, to also integrate onto the airborne laser for more testing 
over the next several years, to identify a laser that's got the 
standoff distances we're looking for.

                         CRUISE MISSILE DEFENSE

    Senator Dorgan. Well, let me send you some additional 
questions on that.
    Let me ask another question that has always intrigued me. 
Ballistic missile defense is important. You're working on it. 
There are several different plans for deployment. And I 
understand all that. The question is--let's assume that we get 
this up and installed, and we're going to feel safer, in terms 
of response to a ballistic missile attack. A far more likely 
attack, in my judgment, would be for a--from a cruise missile 
acquired by an adversary that--we have cruise missiles that are 
in far greater quantity than ballistic missiles. Is there a 
defense system for our country against cruise missiles? And if 
so, what is it?
    General O'Reilly. Sir, the prioritized capabilities list 
for missile defense that the Strategic Defense Command--or, the 
Strategic Command--STRATCOM--has provided, in March, to me is 
an integrated air and missile defense capabilities--prioritized 
capabilities list representing all the combatant commanders and 
the four services. And from that, they have indicated both 
needs for cruise missile, air-breathing, and missile defense. 
My charter, my responsibility is on the missile defense side. 
So, the services, right now, are doing the development for the 
cruise missile and the air-breathing threats.
    Senator Dorgan. But, isn't it the case that the ballistic 
missile defense activities have been far more robust than the--
any activities to defend against cruise missiles? And I think 
it--the likelihood is 5, 10, 15, 20 years from now, it's much 
more likely an adversary would find some kind of a truck, 
whether that vehicle be land based or sea based or air based, 
to acquire a cruise missile and deliver a cruise missile with 
terrain-following guidance at 500 feet above the ground. And 
meanwhile, we've got a big ballistic missile defense system to 
protect against intercontinental ballistic missiles that go up 
into space and come down, and somebody's threatening our 
country with a nuclear warhead on a cruise missile. Isn't it 
the case that we have a much more robust activity on the one 
than we do on the other?
    General O'Reilly. Sir, I'm not in a position to comment on 
the development of the cruise missile capability. But I will 
tell you that on the aegis system, for example, and when we 
integrate with the Army's Patriot and lower-tier systems that 
do handle cruise missiles, in both those cases, we participate 
in ensuring that our capability that we develop for missile 
defense is also being used for those other mission areas.
    Senator Dorgan. All right.
    Well, I'm going to send you some additional questions, 
General. I'm very interested in what we're developing and the 
kind of protection that it affords. All of us worry that future 
adversaries or present adversaries can acquire increasingly 
sophisticated weaponry to threaten this country; there's no 
question about that. And I think there's a wide range of 
threats to protect against.
    Let me make one final point, Mr. Chairman, and that is, all 
of this costs a lot of money, and when any of us ever talk 
about the Federal budget deficit, that's--we also have to make 
the point that all of this ought to be paid for, year by year, 
one way or another, in a budgeting process. So, this is 
expensive, but nonetheless, very important for the country and 
its protection.
    Chairman Inouye. Thank you.
    Senator Bond.

               MISSILE DEFENSE STRATEGY--EUROPEAN DEFENSE

    Senator Bond. Thank you very much, Mr. Chairman.
    And welcome, General O'Reilly. Thank you for being here to 
discuss the $8.4 million--billion missile defense budget for 
fiscal year 2011.
    In light of the significant changes made last year to our 
strategy, I'm pleased to see that the President has taken a 
serious approach to missile defense by increasing his request 
by over $500 million. Our ability to protect the American 
homeland, American troops overseas, North Atlantic Treaty 
Organization (NATO) allies, international partners, is tied 
directly to an effective global missile defense strategy. 
However, the President's announcement to alter our regional 
missile defense architecture in Europe to a phased adaptive 
approach gives me and several of my colleagues serious 
concerns. Breaking our previous missile defense treaties with 
Poland and the Czech Republic not only undermines two of our 
NATO allies, but puts at risk our ability to protect our 
friends and allies in Europe and the Middle East.
    In addition, Iran's capability to target our partners, to 
include the continental United States, with an intercontinental 
ballistic missile, or ICBM, is growing, both quantitatively and 
qualitatively. As a result, our ability to knock down a 
potential ICBM from Iran, whether aimed at the United States or 
a friend, like Israel, I'm afraid, may be degraded.
    Under the original missile defense plan in Europe, the 
third site in Poland was intended to provide a capability to 
knock down an ICBM from Iran by 2013. Now, that's subsequently 
slipped to 2017. General, in your testimony before the Armed 
Services Committee yesterday, you stated that it is reasonable 
to believe that Iran may have an ICBM by 2015. And Chair 
Feinstein and I, on the Intelligence Committee, are following 
that very closely. I won't comment on it, but that's what you 
said.
    I'm doing the math here, and it seems that the agreement to 
build, in Romania and Poland in 2015 and 2018, a new phased 
adaptive approach, weakens our missile defense strategy and our 
ability to protect our friends and allies in Europe and the 
Middle East. I'm equally uncertain that the new approach will 
provide 100-percent assurance to American families from 
continental--in the continental United States being vulnerable 
to an ICBM from Iran.
    We know that more shots at an ICM are better. So, with the 
third site in Poland gone, are you sure that that will--or, at 
least, for the near future--are you sure that that will not 
weaken our capacity to knock down an ICBM in the nearer term?
    General O'Reilly. Sir, first of all, I do recognize the 
uncertainty in the intelligence estimates that have been 
evident over the years on when ICBM capability will be 
available. As you say, sir, yesterday I said I could not deny 
that there would be a capability in 2015 if Iran is getting 
outside help and if they continue to develop that capability.
    The concern I had with the original proposal for the 
defense of Europe was, number one, the timelines haven't 
changed. I used to be responsible for delivering that--that it 
takes 5\1/2\ years, from the beginning to the end of a 
production of a missile field, another 6 months to integrate 
it. And the combatant command over there asked for another year 
to integrate that capability. So, when we were discussing, 
previously, of a 2013 capability, we were assuming a start 
years prior to where we are now, which the requirement for the 
ratification of the ballistic missile defense agreements in 
Poland and the Czech Republic were required before we could 
begin that work. So, what has happened to the delay that moved 
it to the 2017 timeframe was primarily driven by the 
ratification, which did not occur in either country.
    Second, the capability that we are developing--it became 
very evident that Iran--the concern is, number one, Will they 
have this capability? The other concern is, What quantity are 
they going to procure? And we have the capability, with 30 
operational GBIs, to handle--if you use the shot doctrine of 
two missiles against every one threat--of up to 15 being 
launched. The combatant commanders reviewed that. This was done 
with the Joint Chiefs to make an assessment on, Is that the 
right number, given the threat uncertainties at this time?
    But, as you also say, sir, we also recognize we're going to 
need, in the future, a large number of interceptors that are 
capable of intercepting ICBMs. And they found the most cost-
effective approach would be to forward-base them on our ships 
and at our aegis ashore sites, so we can put larger numbers, 
much larger than we previously proposed.
    Senator Bond. I thank you, sir.

                      RUSSIA AND THE START TREATY

    Next, I have concerns the administration will be compelled 
to slow down its phased adaptive missile approach defense in 
Europe if Russian threat--Russia threatens to pull out of the 
START agreement. In particular, as the Senate Armed Services 
Committee hearing brought out yesterday, the Russian Defense 
Minister has outlined his own interpretation of START by 
stating unequivocally that a linkage between increased missile 
defenses in Europe that impede Russia's nuclear efforts will 
shape its ability to effectuate START. To what extent we--he 
plans to modify it, we can only imagine.
    But, under the new arrangement, it seems to me that Russia 
feels it has the ability to back out of START if they don't 
like the way our missile defense architecture is growing in 
Europe.
    Given recent actions by Russia, I would change President 
Reagan's theory for dealing with Russia to ``Verify, but don't 
trust.'' And I would like to know whether you feel that this 
indication by Russia is a threat that will--that they will get 
out of the START Treaty if we carry forward with some of the 
things that we're doing.
    General O'Reilly. Sir, we believe it is in the national 
interest of the Russian Federation to complete this treaty 
agreement, and in our national interest. But, on the hand--
either side could back out, and both sides have made unilateral 
statements that they reserve that right, but that's recognized 
in the treaty.
    From a legal perspective that I rely on with the Department 
of Defense lawyers, I have no legally binding restrictions, 
under the new treaty, to curtail any of my developmental work 
in missile defenses, nor have I been given any instructions to 
even consider that.
    Senator Bond. I--the assumption that backing out of the 
treaty would not be in Russia's ``national security interest'' 
concerns me. I don't think we can afford to hedge our bets of 
what Russia, or, for that matter, Iran, China, North Korea, may 
or may not do. I think we deserve a robust missile defense 
strategy that fosters trust and security, and not shape our 
actions to please Russia, which is not, in my view, interested 
in securing our national defense. So, I would urge you to 
continue to pursue, aggressively, all of the means available to 
assure that we do have the defenses that would be necessary, in 
a timely fashion, to protect our critical allies, as well as 
our country--our continental United States.

           START TREATY--UNITED STATES AND RUSSIA COOPERATION

    And I thank you.
    Chairman Inouye. Thank you very much.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman. And 
congratulations on becoming a grandfather.
    Chairman Inouye. I thank you.
    Senator Feinstein. I think that's wonderful.
    General, let me just compliment you on your testimony. You 
were very straightforward and very direct, and I just want you 
to know that it's very much appreciated.
    Just to follow up on Senator Bond's comments--and he and I 
work closely together on the Intelligence Committee--I had the 
opportunity to go to Geneva in November, with Senator Kyl, and 
to meet with both the Russian team and our team during these 
negotiations and spend some time with Ambassador Antonov. Two 
days ago, the chairman of the foreign affairs committee of the 
Federation Council, Mikhail Margelov, and also the vice 
chairman, met with me. This is the body that would ratify the 
treaty. It's the upper house. The Duma is the lower house. And 
so, it must go to the Federation Council. I had a very positive 
meeting with him, and really felt that there was a new voice in 
Russia. Now, this, of course, is the civilian voice, not the 
military voice. But, a real understanding of what was trying to 
be achieved, in terms of building trust and confidence between 
our two countries and, I think, a recognition that this is a 
different era and that all of these nuclear weapons, and the 
size of them, and the numbers of them, really do present 
jeopardy to both countries' in the long term. So, I was very 
heartened by that response.
    I have read the treaty. I have read the preamble. I have 
read our reaction to it. And just so that the record is clear, 
let me ask this question. Does anything in the proposed treaty 
interfere with your plans regarding missile defense?
    Senator Shelby. No, Senator.
    Senator Feinstein. Thank you.
    What is your interpretation of the new treaty and related 
unilateral statements made by Russia and the United States, 
with respect to missile defense? Are they similar to what was 
made before the first START Treaty?
    General O'Reilly. It is my understanding they are. As was--
has been mentioned before, that we have had similar unilateral 
presentations made by both countries in many of our previous 
treaties, such as the ABM Treaty, which we pulled out of, and 
we saw it wasn't in our national interest, because it did 
interfere with our plans to defend ourselves from the growing 
proliferation of missiles, which we saw. So, no, I don't see 
anything distinctively different.
    I do think this is an opportunity, though. As you said, 
Senator, I have said many times, in Moscow and other capitals 
around the world, with engaging with the Russians, that we do 
have opportunities to work with them, because the missile 
threat--proliferation of missiles--threatens them as it 
threatens us. And there are great opportunities for us to 
cooperate in sharing our sensor data, our future research and 
development, and our command and control activities and 
exercises, in order to build confidence, between both sides, 
that we're not threatening each other, but we are building 
ourselves a defense against the proliferation of these 
missiles.

                              START TREATY

    Senator Feinstein. What advances in missile defense 
technology do you think would prompt the Russians to threaten 
to withdraw from the treaty?
    General O'Reilly. My understanding is that they thought it 
would undermine the strategic balance between our offensive 
capability and their offensive capability.

              EUROPEAN LAND-BASED VERSUS SEA-BASED DEFENSE

    Senator Feinstein. Thank you. I think that's correct.
    Let me switch to a--different areas. A lot has been 
discussed in the media about the decision to shift the focus 
from a European land-based defense strategy to a medium-term 
sea-based strategy. Now, as a result, the Navy--our Navy--will 
assume a significant burden in providing the necessary ships, 
missiles, radars, and related components to really be a 
credible deterrent against enemy threats and to provide the 
required defense against actual attacks. Have we assumed new 
risks in continental Europe or here in the United States by 
shifting the emphasis away from a ground-based system to a sea-
based defense?
    General O'Reilly. During our review last year--and we 
worked extensively with the Navy--the Department of Defense 
made the determination that there was a need to continue a 
ground-based capability that had greater range than our mobile 
systems do, such as THAAD. And in that case, we determined the 
aegis ashore, which is taking Navy capability and putting it 
into a semi-permanent location that could be moved at a later 
date and that is flexible against threats. But, we do have that 
capability.
    On top of that, though, the Navy also agreed to be the lead 
service to man and equip and train those operations on the 
shore. That, in fact, gives the Navy greater capability, 
because, while the larger pool of common missiles for them to 
manage between sea and at land, and also for their personnel, 
who today the--most of the aegis assignments are at sea, and 
this gives the Navy leadership the opportunity to rotate 
between land assignments and sea assignments. And there's a 
tremendous economical benefit of having one capability work 
both at land and at sea.
    We're also increasing our number of aegis ships that have 
ballistic missile defense capability. Last year's budget was 
for 27 ships. This year we're proposing 38 ships to also 
address that issue.

                            LAND-BASED AEGIS

    Senator Feinstein. Thank you.
    What land-based requirements remain in Europe for the 
implementation of the new sea-based missile system?
    General O'Reilly. The countries of Poland and Romania have 
both indicated that they would be willing to host our aegis 
ashore system. So, as we increase the capability for aegis at 
sea with newer missiles that we currently have in development, 
including the one with the Japanese, we will have that 
capability on the land, and that will provide very large 
protection over Europe. We believe, with the--our estimates and 
our technical evaluations indicate, with the latest missile for 
aegis, the aegis SM-3 IIB, from those two sites alone, you can 
protect all of NATO.
    Senator Feinstein. So--and I am extrapolating here, and 
please disabuse me of the notion if it's incorrect--you are 
essentially saying that this new system offers a much better 
umbrella of protection.
    General O'Reilly. For the threats to Europe, it definitely 
provides a much greater protection. Our concern was, we--with 
the previous approach was, we would never be in a position, or 
we would not be in a position, to defend the United States, 
anyway, from Europe, because of our commitments under NATO to 
defend the European cities if they were attacked with short-
range or medium-range missiles that do exist today. We wouldn't 
have those 10 missiles available to defend the United States. 
So, we believe that the approach we have taken assures us to 
have capability to defend our homeland, but also greater 
protection over Europe, especially in southeastern Europe today 
that is under the threat of ballistic missiles from the Middle 
East.
    Senator Feinstein. Is it fair to interpret that answer as 
``yes''?
    General O'Reilly. Yes. Yes, ma'am.
    Senator Feinstein. Thank you.
    Thank you very much, Mr. Chairman.
    Chairman Inouye. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    And thank you, General O'Reilly, for your testimony. It's 
been very helpful.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Chairman Daniel K. Inouye

                   AEGIS STANDARD MISSILE ACQUISITION

    Question. I continue to be impressed by the success of the Aegis 
missile defense program. I am concerned, however, that MDA is stopping 
production of the SM-3 Block IA missile prematurely. The Navy and the 
Combatant Commands want more of these missiles deployed, but there are 
just not enough. This Committee provided funding to buy 6 additional 
Block IA missiles in fiscal year 2010, but due to the continued delay 
in testing of the follow-on missile, there will be a production gap 
that compounds the shortage of fielded missiles. I understand that you 
are looking at alternatives for extending production of the Block IA 
missile. Can you please update us on the progress of those plans?
    Answer. In developing the fiscal year 2011 budget request, the 
Missile Defense Executive Board (MDEB) balanced the need for building 
missile inventory with continuing capability development of the next 
version of the SM-3. The SM-3 Block IA production line is in the final 
phases of production before shifting to the Block IB. The SM-3 Block IA 
unique suppliers begin going out of qualification in May/June 2010 (see 
figure 1 of attachment 1). First discussed in 2008, it was determined 
that this approach was acceptable and appropriately balanced risk.
    Discussion.--The first flight test of the SM-3 Block IB (``FTM-
16'') is in late March 2011. If a decision were made to continue SM-3 
Block IA production, there are a range of options for maintaining a 
production line and vendor base for the SM-3 missile, numbered 1 to 4 
below. These options range from buying spare parts to procuring 
additional SM-3 Block IAs.
    As of the date of this response, unique SM-3 Block IA vendors have 
not had work for over 6 months and are losing qualification. Loss of 
supplier qualification will add $53.5 million additional cost to the 
numbered options below to execute if orders are planned by the end of 
CY 2010.
  --Procure only spare parts in quantities which preserve supplier 
        qualifications, fiscal year 2010 estimated additional cost of 
        $60-70 million for 12 SM-3 Block IA ``KV kits.'' These KV kits 
        would be full ``pulse mode'' capable and could be used to swap 
        out the first eight SM-3 Block IA KVs that were limited to 
        ``sustain mode'' operation or provided to the U.S. Navy as 
        additional spares for SM-3 Block IA requalification. If 
        ordered, these additional missiles would sustain the vendor 
        base through May 2011.
  --Combine with fiscal year 2010 additional procurement funding ($57.6 
        million), procure 10-12 more SM-3 Block IA, fiscal year 1010 
        estimated additional cost of $60-80 million, plus $10 million 
        of fiscal year 1010 RDT&E to re-host Central Processing Unit 
        (CPU)2. Ordering 10-12 more missiles would sustain the vendor 
        base through May 2011.
  --Procure a mix of new missiles and KV kits to refurbish missiles; 
        fiscal year 2010 estimated additional cost of $120-150 million, 
        plus $10 million of fiscal year 2010 RDT&E to re-host CPU2. 
        This option is a hybrid of the first 2. It would sustain the 
        vendor base through October 2011.
  --Procure 36 more SM-3 Block IA missiles to keep vendors qualified 
        over a longer term; estimated additional cost of $345-375 
        million, including $15 million RDT&E fiscal year 2010 to re-
        host CPU2 and conduct design verification tests of other parts. 
        This would require a modification to our existing SM-3 Block IA 
        Justification and Authorization (J&A). This option would 
        continue SM-3 Block IA into fiscal year 2012.

               THEATER HIGH ALTITUDE AREA DEFENSE (THAAD)

    Question. I understand that there is a Failure Review Board 
investigating a faulty component on the THAAD interceptor. Due to the 
faulty part, THAAD production is on hold. What is the current impact to 
the program, and how will it affect delivery of the THAAD batteries to 
the Army?
    Answer. The THAAD program has completed the manufacturing for all 
THAAD fire control and launcher ground components for the first two 
THAAD batteries. However, THAAD production interceptor deliveries have 
been delayed.
    During November 2009, in-process test failures were experienced 
within an optical switch during production of ignition system 
components for the initial lot of THAAD tactical interceptors. A 
Failure Review Board (FRB) was convened to assess the cause of these 
failures. The FRB concluded that the current switch design is sensitive 
to contamination introduced during the manufacturing process. The 
switch vendor completed implementation of production contamination 
reduction processes and procedures and reopened the optical switch 
production line on May 11, 2010. The current production schedule for 
the first THAAD interceptor projects a first quarter fiscal year 2011 
delivery.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

    Question. What are the 2011 plans for the Airborne Laser research 
and development program? What are some of the compelling new high 
energy laser technologies that have been or may be demonstrated?
    Answer. The Airborne Laser Test Bed (ALTB) is the subject of a 
SECDEF-directed study by the Director of Defense Research and 
Engineering (DDR&E), Cost Assessment and Program Evaluation (CAPE), and 
High Energy Laser Joint Technology Office (HEL JTO) to shape the future 
of the platform. The study is due to the DEPSECDEF in June 2010 and 
will describe the best use of the ALTB in flight and ground tests to 
characterize high-energy laser beam propagation and to further 
investigate emerging high energy laser technologies in their 
implementation environment.
    Two new laser technologies are the Enhanced Track Illuminator Laser 
(ETILL) technology for kilowatt-class laser tracking, and the Diode 
Pumped Alkali Laser (DPAL) technology which has the potential for 
scaling to megawatt-class power.
    ETILL is a kilowatt class replacement for ALTB's current Track 
Illuminator Laser (TILL) for improved active tracking of targets at 
extended ranges. ETILL is 2.5 times more powerful than the TILL and has 
4-5 times better beam quality, enabling an approximate 400 percent 
increase in tracking range. ETILL is the first cryogenically cooled 
diode-pumped solid state laser designed to operate in an aircraft 
environment. The system is currently entering laser performance testing 
and could be integrated onto ALTB within 1 year.
    DPALs are a new class of lasers that combine the benefits of solid 
state and gas lasers. DPALs are electrically powered like solid state 
lasers, but have a gas lasing medium that can be flowed for scaling to 
higher power while maintaining good beam quality. Unlike the Chemical 
Oxygen Iodine Laser (COIL) High Energy Laser (HEL) currently used on 
the ALTB, the gas in a DPAL would be contained in a closed cycle so 
that no chemicals would be consumed or required for operation. DPALs 
can convert electrical energy to laser energy very efficiently. DPALs 
have been demonstrated with output powers in the hundreds of watts and 
DPAL scaling to the multi-kilowatt power level in the laboratory is 
scheduled to be demonstrated by the end of 2010 at the Lawrence 
Livermore National Laboratory. Subsequent scaling to a megawatt-class 
DPAL in the laboratory would require several more years.
    Question. What is the Department of Defense's long term strategy 
and financial budget for this platform?
    Answer. Consistent with the SECDEF's direction, the Airborne Laser 
Test Bed (ALTB) will transition to a directed energy test bed to 
conduct high energy laser experimentation. The ALTB is the subject of a 
SECDEF-directed study by the Director of Defense Research and 
Engineering (DDR&E), Cost Assessment and Program Evaluation (CAPE), and 
High Energy Laser Joint Technology Office (HEL JTO) to shape the future 
of the platform. The study is due to the DEPSECDEF in June 2010 and 
will describe the best use of the ALTB in flight and ground tests to 
characterize high-energy laser beam propagation and to further 
investigate emerging high energy laser technologies in their 
implementation environment. This report will serve as the basis for a 
long-term strategy for ALTB.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. Who is the DOD lead for cruise missile defense? Summarize 
what is currently being done to protect our deployed forces and our 
homeland against the cruise missile threat.
    Answer. The Missile Defense Agency is chartered to develop 
ballistic missile defense capabilities. The Services are responsible 
for the development of defenses against cruise missile and air-
breathing threats. DEPSECDEF on July 22, 2008 designated USSTRATCOM as 
the Air and Missile Defense Integrating Authority.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

    Question. In an interview with Deputy Under Secretary of the Air 
Force for Space Programs Gary Payton, published in Space News on April 
19, 2010, Dep. Under Secretary Payton concluded that the President's 
new direction for NASA would have a small, but manageable, impact on 
Navy and Air Force ballistic missiles, and only a ``trivial impact'' on 
DOD space launch capacity.
    Do you share Deputy Under Secretary Payton's conclusions? What 
impacts do you believe the President's new direction for NASA has on 
the Department's space and missile programs?
    Answer. MDA is working closely with the Air Force, NASA and other 
members of the Solid Rocket Motor (SRM) Interagency Task Force (IATF) 
to develop a consolidated assessment of the impact of NASA's new 
direction on the industrial base and develop a roadmap which is due to 
Congress in June 2010.
    Question. Which major ongoing Department of Defense programs 
promote continued development of solid rocket motor development?
    Answer. For large SRM (>40 inch diameter), there are currently no 
development efforts among the Services and agencies in the FYDP. 
However, MDA is developing a 21 inch diameter (small) solid rocket 
motor for the SM3 IIB second stage and possibly third stage.
    Question. What is the long-term plan to sustain the high-tech solid 
rocket motor industrial base?
    Answer. MDA's long-term plan to sustain the high-tech Solid Rocket 
Motor (SRM) Industrial Base (IB) includes supporting the SRM IB Inter-
Agency Task Force (IATF) development of a SRM sustainment plan. MDA 
believes that we need:
  --To work with industry to ``right size'' and align capacity to 
        reality;
  --To ensure long-term viability of small and large SRMs (missile 
        defense and tactical systems);
  --To closely monitor the already fragile critical sub-tier supplier 
        base; and
  --Propose plans to retain SRM expertise and facilities for future 
        contingencies.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                  ISRAELI COOPERATIVE PROGRAM SUPPORT

    Question. General O'Reilly, the United States and Israeli 
governments have been working together to develop an upper-tier 
component for the Israeli missile defense program. I understand the 
Israelis are pursuing the enhanced version of Arrow, Arrow-3, and are 
required to meet knowledge points to measure their progress. Can you 
give us an update on Israel's progress in relation to meeting those 
knowledge points?
    Answer. The Arrow-3 development program continues to make 
significant progress. Three Knowledge Points (KPs) have been 
successfully completed, two KPs have been executed and are under review 
by MDA, and three additional KPs are scheduled to be executed by the 
first quarter of fiscal year 2011. A Critical Design Review is 
currently scheduled for June 2010.
    MDA prepared a classified report on Arrow-3 Knowledge Points which 
was delivered to Congress by the Under Secretary of Defense for 
Acquisition, Technology and Logistics (AT&L) on April 12, 2010. The 
report provides detailed information on the knowledge points, schedule, 
and assessment of program milestones.
    MDA has provided a separately required Arrow-3 Knowledge Point 
Report to Congress that is currently under review within the 
Department. This report will provide the most current KP status 
information and delivery is expected by the end of June 2010.

                            SEA-BASED ASSETS

    Question. General O'Reilly, it appears that there is an 
insufficient inventory of Ballistic Missile Defense capable Aegis-class 
ships to implement the President's Phased Adaptive Approach strategy 
for missile defense in Europe and the Middle East and to address 
concerns in other parts of the world, including North Korea. Earlier 
this year, Admiral Walsh, the Commander of the Pacific Fleet, indicated 
that the U.S. Pacific Fleet had a decline in ship inventory due to 
supporting missions in Iraq, Africa, and battling increased incidents 
of piracy.
    General, given this decline in ship inventory in the Pacific and 
other regions and the increased demand associated with the President's 
new strategy, how has the Missile Defense Agency and the Navy been 
working to alleviate the shortfall in Ballistic Missile Defense capable 
ships? Is there any consideration being given to building or modifying 
meaningful numbers of additional Ballistic Missile Defense capable 
Destroyers to address these shortfalls in a timely fashion?
    Answer. Yes, MDA and the U.S. Navy plan to increase the number of 
BMD capable ships from 21 today to 38 by the end of 2015 as stated in 
the Additional Requirements for Investment in Aegis Ballistic Missile 
Defense Report to Congress (RTC) dated April 2010. In support of this 
plan, Navy has requested a transfer $15 million of fiscal year 2010 
funds to the Missile Defense Agency (MDA) to accelerate the number of 
Aegis BMD ships. The reprogramming package was forwarded to Congress in 
April 2010. In order to further complete these accelerated BMD ship 
upgrades the Navy has also requested the transfer of $74 million in 
President's budget 2011 from the Navy to MDA.

         NATO--ACTIVE LAYERED THEATER BALLISTIC MISSILE DEFENSE

    Question. General O'Reilly, the Quadrennial Defense Review released 
earlier this year stresses a focus on building partnerships with 
overseas allies. I understand we are beginning to integrate different 
components from various NATO allies to form a tiered active ballistic 
missile defense system. Can you highlight the United States' 
contribution and cost for this effort and does it replace what we 
already have established with these allies?
    Answer. MDA has been working with NATO for more than a decade. Over 
the years, the MDA and NATO have worked collaboratively on developing 
documentation and demonstrating interoperability. This ongoing work has 
gained significant momentum since NATO established the Active Layered 
Theatre Ballistic Missile Defense Programme Office (ALTBMD PO) in 2005. 
This work is the foundation of the efforts to develop interoperable 
missile defense capabilities with our NATO allies.
    Specifics include:
  --Current MDA budget for this is fiscal year 2010: $2.75 million; 
        fiscal year 2011: $3 million; fiscal year 2012: $3 million.
  --MDA and the ALTBMD PO jointly developed Interface Control Documents 
        (ICDs) for real-time and non-real-time information exchange.
    --Real-time ICDs document the exchange of situational awareness 
            information between NATO Air Command and Control System and 
            the U.S. C\2\BMC, Aegis BMD, and Patriot systems.
    --Non-real-time ICDs document the exchange of planning and tasking 
            information between U.S. and NATO missile defense command 
            and control systems.
  --MDA and NATO have conducted bi-lateral testing of real-time 
        information exchange between C\2\BMC, Aegis BMD, and Patriot 
        systems and a prototype of the NATO Air Command and Control 
        System.
  --Non-real-time exchange of planning and tasking information has been 
        demonstrated between the U.S. C\2\BMC planner and the NATO 
        planning and tasking tool (PlaTo).
  --MDA and NATO ALTBMD PO are developing the necessary testing 
        infrastructure.
    --International Point of Presence (IPOP) laboratory serves as the 
            U.S. interface between NATO missile defense Integration 
            Test Bed in The Hague, The Netherlands and U.S. missile 
            defense laboratories.
    The United States and NATO have begun discussions for a Memorandum 
of Agreement regarding modifications at Ramstein, AFB, to be the 
operational communications interface point. Information exchange 
between U.S. Phased Adaptive Architecture systems (via C\2\BMC) and 
ALTBMD systems will occur between the U.S. teleport on Ramstein and the 
NATO General Communication System at Ramstein. The United States has 
built bi-lateral communications enclaves for several Host Nations. 
Expanded connectivity with Allies is anticipated to be via Ramstein.
    A strong foundation has been documented, built and tested for 
interoperability between U.S. and Allied forces. Our current efforts do 
not replace what we have established with our NATO allies; it leverages 
our past efforts with the existing and planned NATO command and control 
systems. Subsequent work will build upon this foundation.

                            SM-3 MISSILE GAP

    Question. General O'Reilly, I understand a major component of the 
Missile Defense Phased Adaptive Approach strategy involves the use of 
Ballistic Missile Defense-capable Aegis ships equipped with SM-3 
missiles. I have been informed that while the Missile Defense Agency 
continues developing the newest and more capable version of the SM-3 
missile, the Block IB, the main production line for the current 
version, the Block IA, is shutting down. What are the costs associated 
with restarting the production line for the updated SM-3 missile once 
the line for the old missile has been shut down, and have you or do you 
plan to budget for these additional costs?
    Answer. The overall production line for the Standard Missile-3 (SM-
3) missile will not shut down. The last SM-3 Block IA is scheduled for 
delivery in fiscal year 2012, at which time the SM-3 production line 
will transition from the Block IA configuration to the Block IB 
configuration, completing in 2013. In the interim time period, we will 
cease procuring unique Block IA parts and start buying unique Block IB 
parts. After Calendar Year 2010, the majority of Block IA unique 
suppliers will be out of qualification. The SM-3 Block IB production 
line will require some new, different test equipment and assembling 
processes.
    There is no cost to restart the SM-3 production line as work on the 
line (either production or transition) never ceases. The cost 
associated with transitioning the SM-3 production line is $55 million 
over 3 years. President's budget 2011 contains a portion of that cost.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

    Question. General O'Reilly, at the present time, only two U.S. 
companies produce solid rocket motors for all of our nation's needs, 
and only one company manufactures their most key ingredient: the 
oxidizer. These three companies support all missile defense programs, 
plus all strategic missiles, military, and commercial space lift 
capabilities, NASA human spaceflight systems, and the entire cadre of 
tactical missiles available to today's war fighter. Since the early 
1990s, NASA has served as the anchor tenant for this industry, 
providing a stable backbone to offset the often inconsistent production 
requirements of military and commercial programs. However, demand for 
products made by the solid rocket motor industry has been in steady 
decline for many years, and is right now experiencing a further 
dramatic drop with the completion of the Minuteman III Propulsion 
Replacement Program, the retirement of the Space Shuttle, the 
termination of the Kinetic Energy Interceptor, and the production 
slowdown of Ground-based Midcourse Defense interceptors. Now, NASA has 
announced the cancellation of the Constellation program. This will have 
a significant impact on industry's ability to continue to safely, 
reliably, and affordably produce solid rocket motors to meet our 
nation's needs. What plans has the Missile Defense Agency made to 
sustain this industry, to continue to meet current deployed and future 
anticipated missile defense needs? I recognize that, in response to 
direction from the Congress last year, that the Office of the Secretary 
of Defense is developing a roadmap on how to best sustain this 
industry. What inputs have you or your agency provided to that ongoing 
study? Have you had any conversations with other government agencies, 
such as NASA, about the need to sustain this industry, and if so, 
please share with us any concerns you may have expressed about the 
impact of NASA's decision on your ability to meet current and future 
missile defense requirements?
    Answer. MDA's long-term plan to sustain the high-tech Solid Rocket 
Motor (SRM) Industrial Base (IB) includes supporting the SRM IB Inter-
Agency Task Force (IATF) development of a SRM Sustainment Plan. MDA 
believes that we need:
  --To work with industry to ``right size'' and align capacity to 
        reality;
  --To ensure long-term capability to produce small and large SRMs 
        (missile defense and tactical systems); and
  --To closely monitor the already fragile critical sub-tier supplier 
        base.
    MDA is working closely with the OSD Solid Rocket Motor (SRM) 
Industrial Base (IB) Inter-Agency Task Force (IATF) on the development 
of an integrated roadmap that includes DOD, MDA and NASA requirements. 
MDA's participation in the IATF Working Group (IWG) involves hosting 
the IWG meetings, participating in industry site visits and assessments 
and

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The subcommittee will stand in recess 
until Wednesday, May 12, and at that time we'll receive 
testimony from the Secretary and Chief of Staff of the Air 
Force to discuss the Air Force's fiscal year 2011 budget 
request.
    We'll be in recess.
    [Whereupon, at 11:20 a.m., Wednesday, April 21, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
